APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 27 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

IMMANUEL F. SANCHEZ,
Plaintiff-Appellant,
v.

No.

19-56502

D.C. No.
2:19-cv-09084-ODW-AFM
Central District of California,
Los Angeles

STATE OF CALIFORNIA; et al.
ORDER
Defendants-Appellees.
Before: CANBY, GOULD, and WATFORD, Circuit Judges.
Upon a review of the record and the responses to the court’s January 7, 2020
order, we conclude this appeal is frivolous. We therefore deny appellant’s motions
to proceed in forma pauperis (Docket Entry Nos. 2, 5), see 28 U.S.C. § 1915(a),
and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2) (court shall
dismiss case at any time, if court determines it is frivolous or malicious).
DISMISSED.

AC/MOATT

APPENDIX B

No

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
IMMANUEL F. SANCHEZ,

CASE NUMBER

2:19-cv-09084-ODW - AFM
PLAINTIFF(S)

V.

STATE OF CALIFORNIA, ET AL„

ORDER RE REQUEST TO PROCEED
IN FORMA PAUPERIS
DEFENDANT(S)

IT IS ORDERED that the Request to Proceed In Forma Pauperis is hereby GRANTED.

Date

.United States Magistrate Judge

IT IS RECOMMENDED that the Request to Proceed In Forma Pauperis be DENIED for the following reason(s):
□ Inadequate showing of indigency

|3 District Court lacks jurisdiction

□ Legally and/or factually patently frivolous

3 Immunity as to____________

Other: Fails to state a federal claim on which relief may be granted
Comments:
See proposed order submitted herewith.

11/14/2019
Date

United States Magistrate Judge

IT IS ORDERED that the Request to Proceed In Forma Pauperis is hereby:
□ GRANTED
0 DENIED (see comments above). IT IS FURTHER ORDERED that:
□ Plaintiff SHALL PAY THE FILING FEES IN FULL within 30 days or this case will be dismissed.
[3 This case is hereby DISMISSED immediately. \
□ This case is hereby REMANDED to state court.
November 15,2019
Date
CV-73 (08/16)

United States Disti
ORDER RE REQUEST TO PROCEED IN FORMA PAUPERIS

7

■f

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

JS-6

9

io
li

IMMANUEL F. SANCHEZ,

12
13
14
15

Plaintiff,
v.
STATE OF CALIFORNIA., et al.,
Defendants.

Case No. 2:19-cv-09084-ODW-AFM
ORDER (1) DENYING REQUEST TO
PROCEED INFORMA PAUPERIS
AND (2) DISMISSING COMPLAINT
FOR LACK OF SUBJECT MATTER
JURISDICTION

16
17

Plaintiff filed this pro se civil rights action on October 22, 2019, and he seeks

18

leave to proceed in forma pauperis (“IFP”). Plaintiff previously filed a civil rights

19

action, case no. 2:18-cv-06107-R-AFM (“case 18-cv-06107”), against most of the

20

same defendants, and the prior case raised essentially the same claims as asserted

21

here. Plaintiff also sought leave to proceed IFP in case 18-cv-06107. Plaintiff’s IFP

22

request in the prior case was denied, and that case was dismissed for lack of subject

23

matter jurisdiction. (18-cv-06107, ECF No. 8.) Plaintiff filed an appeal in the prior

24

case. (18-cv-06107, ECF Nos. 9-10, 16.) On May 29, 2019, the Ninth Circuit

25

concluded that plaintiffs appeal was frivolous, denied his IFP motion, and dismissed

26

plaintiffs appeal of the earlier action pursuant to 28 U.S.C. § 1915(e)(2). (18-cv-

27

06107, ECF No. 19.)

28

l

In the present case, the Court has screened the Complaint to determine whether

2

it is frivolous or malicious; fails to state a claim on which relief may be granted; or

3

seeks monetary relief against a defendant who is immune from such relief. See 28

4

U.S.C. § 1915(e)(2)(B). Section 1915(e)(2) pertains to any civil action by a litigant

5

who is seeking to proceed in forma pauperis. See, e.g., Shirley v. Univ. of Idaho, 800

6

F.3d 1193, 1194 (9th Cir. 2015). In screening the Complaint to determine whether

7

plaintiffs pleading states a claim on which relief may be granted, the Court

8

“discounts] conclusory statements, which are not entitled to the presumption of

9

truth, before determining whether a claim is plausible.” Salameh v. Tarsadia Hotel,

10

726 F.3d 1124, 1129 (9th Cir. 2013); see also Rosati v. Igbinoso, 791 F.3d 1037,

11

1039 (9th Cir. 2015) (in determining whether a complaint should be dismissed under

12

28 U.S.C. §1915(e)(2)(B), courts apply the standard of Fed. R. Civ. P. 12(b)(6)).

13

In his current Complaint, plaintiff has primarily reorganized and reworded the

14

same claims from the earlier action that have been dismissed.1 Plaintiff again

15

contends that he was wrongfully denied medical care under state law. He again

16

names as defendants the State of California and the state Department of Social

17

Services, as well as individuals and entities that appear to be private health care

18

providers. Once again, plaintiffs Complaint lacks an arguable basis in either fact or

19

law to raise a federal civil rights claim. See Denton v. Hernandez, 504 U.S. 25, 31-

20

33 (1992); Neitzke v. Williams, 490 U.S. 319, 325 (1989). And again, plaintiffs

21

factual allegations fail far short of raising a purported right to relief on any federal

22

claim beyond the speculative level. See Bell Atlantic Corp. v. Twombly, 550 U.S.

23

544, 555 (2007).

24
25
26
27
28

1 Plaintiff purports to characterize this case as “reinstated or reopened,” despite dismissal of the
prior case and affirmance by the Court of Appeals. (ECF No. 1-1 at 1.) Plaintiffs current
Complaint includes factual allegations beginning in February 2007 (ECF No. 1 at 13) and
continuing into 2019 (id. at 19). The additional factual allegations concerning events after the
earlier action also pertain to medical treatment by private entities and individuals or allegedly
“fraudulent statements” about plaintiffs medical care under state law (see, e.g., id. at 19, 21-22,
24-25, 35, 72). Such allegations do not alter the Court’s analysis of plaintiffs claims.
2

l

Plaintiff again names as defendants, inter alia, the State of California, the

2

California Department of Social Services, and the director of that state department in

3

his official capacity. (Id. at 5-6.) The Eleventh Amendment bars federal jurisdiction

4

over suits by individuals against a State and its instrumentalities or agencies, unless

5

either the State consents to waive its sovereign immunity or Congress abrogates it.

6

Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 99-100 (1984). In

7

addition, “the eleventh amendment bars actions against state officers sued in their

8

official capacities for past alleged misconduct involving a complainant’s federally

9

protected rights, where the nature of the relief sought is retroactive, i.e., money

10

damages.” Bair v. Krug, 853 F.2d 672, 675 (9th Cir. 1988). To overcome this

11

Eleventh Amendment bar, the State’s consent or Congress’ intent must be

12

“unequivocally expressed.” Pennhurst, 465 U.S. at 99. While California has

13

consented to be sued in its own courts pursuant to the California Tort Claims Act,

14

such consent does not constitute consent to suit in federal court. See BVEngineering

15

v. Univ. of Calif, Los Angeles, 858 F.2d 1394, 1396 (9th Cir. 1988). Finally,

16

Congress has not repealed state sovereign immunity against suits brought under 42

17

U.S.C. § 1983. Accordingly, die Court does not have jurisdiction over plaintiffs

18

claims against California, its agencies, or its instrumentalities.

19

Just as in case no. 18-cv-06107, plaintiff also names as defendants many

20

individuals and entities that appear to be private health care providers. However, to

21

“state a claim under § 1983, a plaintiff must allege the violation of a right secured by

22

the Constitution and laws of the United States, and [he] must show that the alleged

23

deprivation was committed by a person acting under color of state law.” West v.

24

Atkins, 487 U.S. 42, 48 (1988).

25

“excludes” from the reach of § 1983 all “merely private conduct, no matter how

26

discriminatory or wrongful.” American Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40,

27

50 (1999) (internal quotation marks omitted). The Complaint largely alleges that

28

private entities or individuals failed to provide adequate health care to plaintiff over

The “under-color-of-state-law” requirement

3

1

l

more than ten years. Accepting reimbursements from the Medi-Cal program or

2

accepting other government funds does not create a contract to provide health care to

3

plaintiff that could plausibly give rise to a federal constitutional claim. See, e.g.,

4

Marquez v. Dep’t ofHealth Care Services, 240 Cal. App. 4th 87, 93-94 (2015) (the

5

“Medi-Cal program does not directly provide services” but, rather, reimburses health

6

care providers for services). Similarly, to the extent that plaintiff again names

7

employees of the University of Southern California as defendants {see, e.g., ECF No.

8

1 at 10-11), employees of a private university are not acting under color of state law.

9

Nothing in the Complaint plausibly suggests that any of the private defendants or

10

private entities engaged in state action under color of state law. Plaintiff’s factual

11

allegations appear, at most, to give ri,se to claims under state law such as medical

12

malpractice, negligence, or fraud. See, e.g., DeGrassi v. City of Glendora, 207 F.3d

13

636, 647 (9th Cir. 2000) (a “bare allegation” that a private person acted jointly with

14

state officials is insufficient to show such defendant acted under color of state law as

15

required to state a claim under § 1983).

16

Plaintiff also again names as a defendant the County of Los Angeles

17

(“County”). (ECF No. 1 at 6.) A local government entity such as the County “may

18

not be sued under § 1983 for an injury inflicted solely by its employees or agents.

19

Instead, it is when execution of a government’s policy or custom, whether made by

20

its lawmakers or by those whose edicts or acts may fairly be said to represent official

21

policy, inflicts the injury that the government as an entity is responsible under

22

§ 1983.” Monell v. Dep’t of Social Servs. of City ofNew York, 436 U.S. 658, 694

23

(1978). Here, the Complaint fails to set forth any factual allegations that a specific

24

policy or custom promulgated by the County was the “actionable cause” of a specific

25

constitutional violation. See Tsao v. Desert Palace, Inc., 698 F.3d 1128, 1146 (9th

26

Cir. 2012).

27

unconstitutional conduct of their subordinates under a theory of respondeat superior.”

28

Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009). Accordingly, to state a federal civil

Further, “[gjovemment officials may not be held liable for the

4

■f.

l

rights claim against a state or local government official, plaintiff must allege that

2

each such defendant “through the official’s own individual actions, has violated the

3

Constitution.” Id. at 676-77.

4

allegations showing such individual actions.

Plaintiffs Complaint fails to state any factual

5

Plaintiff appears to attempt to assert a claim for conspiracy pursuant to Section

6

1983. (Id. at 31.) However, he fails to allege any facts showing that any specific

7

state actors had a “meeting of the minds” at a particular time to deprive him of a

8

federally protected right, and his conclusory allegations fail to give rise to a plausible

9

federal claim. See, e.g., Crowe v. County of San Diego, 608 F.3d 406,440 (9th Cir.

10

2010) (to prove a conspiracy under §1983, “plaintiff must ‘demonstrate the existence

11

of an agreement or meeting of the minds’ to violate constitutional rights”). Further,

12

neither the Fourteenth Amendment nor any other part of the United States

13

Constitution protects a “fundamental right to health care.” (ECF No. 1 at 29.)

14

Plaintiffs reliance on Brown v. Plata, 563 U.S. 493, 510-11 (2011) (ECF No. 1 at

15

40, 55), is misplaced because that case addresses access to health care within a state

16

prison system, but plaintiff is not alleging any deprivation of health care while

17

incarcerated.

18

Plaintiff further claims that the State “invidiously discriminate[s] against

19

plaintiff because of his poverty” or “economic disability,” but this simply does not

20

give rise to a claim under the Fourteenth Amendment. (ECF No. 1 at 47, 66.) It is

21

clear that discrimination on the basis of indigency does not give rise to a federal equal

22

protection claim. See, e.g, Harris v. McRae, 448 U.S. 297,323 (1980) (the Supreme

23

Court has repeatedly held “that poverty, standing alone, is not a suspect

24

classification” under the Equal Protection Clause).

25

To the extent that plaintiff purports to raise a claim under the Racketeering

26

Influenced and Corrupt Organizations Act (“RICO”) (ECF No. 1 at 3, 68, 71-75),

27

that statute requires specific factual allegations that specific defendants engaged in

28

crimes that are defined to constitute racketeering activity and that the alleged conduct
5

l

directly and proximately caused plaintiff s alleged injury. See Resolution Trust Corp.

2

v. Keating, 186 F.3d 1110, 1117 (9th Cir. 1999); Oscar v. University Students Co­

3

op. Ass’n, 965 F.2d 783, 786 (9th Cir. 1992) (en banc) (Congress enacted RICO “to

4

combat organized crime”), abrogated on other grounds by Diaz v. Gates, 420 F.3d

5

897 (9th Cir. 2005); 18 U.S.C. §1961(1) (setting forth the only crimes that may

6

constitute racketeering activity). Plaintiff’s Complaint alleges nothing that

7

constitutes racketeering activity.

8

Finally, plaintiffs purported First Amendment claim for “right to privacy of

9

mind” is frivolous because it purports to arise from an alleged practice of the State to

10

use “mind control” and “mind control rooms” on “Medi-Cal beneficiaries.” (ECF

11

No. 1 at 36-37, 58-59.) Such allegations “rise to the level of the irrational or the

12

wholly incredible.” Denton, 504 U.S. at 32-33.2

13

For these reasons, plaintiffs factual allegations lack an arguable basis in fact

14

or law to assert a federal civil rights claim against the named defendants. Federal

15

courts are courts of limited jurisdiction and have subject matter jurisdiction only over

16

matters authorized by the Constitution and Congress.

17

Guardian Life Ins. Co., 511 U.S. 375, 377 (1994). It is this Court’s duty to examine

18

its own subject matter jurisdiction, see Arbaugh v. Y&H Corp., 546 U.S. 500, 514

19

(2006), and the Court may dismiss a case summarily if there is an obvious

20

jurisdictional issue. See Scholastic Entm’t, Inc. v. Fox Entm’t Grp., Inc., 336 F.3d

21

982, 985 (9th Cir. 2003). “Absent a substantial federal question,” a district court

22

lacks subject matter jurisdiction, and claims that are “wholly insubstantial” or

23

“obviously frivolous” are insufficient to “raise a substantial federal question for

See, e.g., Kokkonen v.

24
25
26
27
28

2 The Complaint also references “deliberate indifference” (see, e.g., ECF No. 1 at 26, 32, 38,43),
apparently attempting to raise an Eighth Amendment claim for deliberate indifference to a serious
medical need. But the Eighth Amendment only applies to medical services in a prison context.
Plaintiff does not appear to have been a prison inmate at any relevant time. See, e.g., Bell v. Wolfish,
441 U.S. 520,535 n.16 (1979) (“Eighth Amendment scrutiny is appropriate only after the State has
complied with the constitutional guarantees traditionally associated with criminal prosecutions”).
6

/'"X

l

jurisdictional purposes.” Shapiro v. McManus, 136 S. Ct. 450,455-56 (2015).

2

As discussed above, plaintiffs factual allegations here fail to plausibly allege

3

that any named defendant acted under color of state law to deprive him of a right

4

guaranteed under the United States Constitution or a federal statute. Accordingly,

5

the Court lacks subject matter jurisdiction over the claims in this action.

6
7

IT THEREFORE IS ORDERED that the Request to Proceed In Forma
Pauperis is denied, and the Complaint in this action is dismissed without prejudice.

8
9

DATED: November 15, 2019

10

li
12

OTIS D. WRIGHT, II
UNITED STATES DISTRICT JUDGE

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
7

APPENDIX C

/

V

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
NOTICE OF ASSIGNMENT TO UNITED STATES JUDGES

This case has been assigned to:
District Judge John F. Walter
Magistrate Judge Alka Sagar
The case number on all documents filed with the Court should read as follows:
2:19-CV-09084-JFW (ASxf
District judges in the Central District of California refer all discovery-related motions to the
assigned magistrate judge pursuant to General Order No. 05-07. Discovery-related motions
should be noticed for hearing before the assigned magistrate judge. Please refer to the assigned
judges' Procedures and Schedules, available on the Court's website at www.cacd.uscourts.
gov/judges-requirements, for additional information.

Clerk, U.S. District Court
By /s/ Estrella Tamayo
Deputy Clerk

October 22. 2019
Date

ATTENTION
The party that filed the case-initiating document in this case (for example, the complaint or the
notice of removal) must serve a copy of this Notice on all parties served with the case-initiating
document. In addition, if the case-initiating document in this case was electronically filed, the
party that filed it must, upon receipt of this Notice, promptly deliver mandatory chambers
copies of all previously filed documents to the newly assigned-district judge. See L.R. 5-4.5. A
copy of this Notice should be attached to the first page of the mandatory chambers copy of the
case-initiating document.

CV-18 (08/19)

NOTICE OF ASSIGNMENT TO UNITED STATES JUDGES

APPENDIX D

MIME-Version: 1.0 From:cacd_ecfmail@cacd.uscourts.gov To:ecfnef@cacd.uscourts.gov
Message-Id:<28662702@cacd.uscourts.gov>Subject:Activity in Case 2:19-cv-09084-JFW-AS
Immanuel F. Sanchez v. State of California et al'-Text Only Scheduling Notice Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Notice of Electronic Filing
The following transaction was entered on 10/28/2019 at 9:39 AM PDT and filed on 10/28/2019
f

Case Name:

Immanuel F. Sanchez v. State of California et al

Case Number:

|2:19-cv-09084-JFW-AS|

Filer:
Document Number:

7(No document attached)

Docket Text:
Text Entry Order vacating hearing and referring Motion to Commence Suit In Forma Pauperis
[2] to Magistrate Judge Alka Sagar for report and recommendation.THERE IS NO PDF
DOCUMENT ASSOCIATED WITH THIS ENTRY, (sr) TEXT ONLY ENTRY
2:19-cv-09084-JFW-AS Notice has been electronically mailed to:
2:19-cv-09084-JFW-AS Notice has been delivered by First Class U. S. Mail or by other means
BY THE FILER to :
Immanuel F. Sanchez
1345 North Watland Avenue
Los Angeles, CA 90063

APPENDIX E

1
2
3
4
5
6
7
8
9

©ntteb States Btatrtd Court
jfor tfje Central Btetnct of California

10
11

IMMANUEL F. SANCHEZ

12

Plaintiff,

13

V.

14
15
16
17

THE STATE OF CALIFORNIA,
Defendant.

CV 2:19-09084 ODW (AFMx)
ORDER DENYING PETITIONER'S
MOTION FOR RECUSAL OF CURRENT
MAGISTRATE JUDGE AND
REASSIGNMENT TO A DIFFERENT
JUDGE [12]; AND ORDER TO SHOW
CAUSE WHY SANCTIONS SHOULD NOT
BE IMPOSED AGAINST PLAINTIFF FOR
RULE 11(B) VIOLATION.

I. Background

18

19

On October 22, 1019 Plaintiff filed an 80 page Complaint - not counting

20 approximately 50 pages of exhibits of miscellaneous paperwork. The Complaint charges
21
violation of civil rights under 42 U.S.C. §1983 and RICO under 18 U.S.C. §§1961 et seq.

22
23

It would appear that Sanchez is displeased with the quality of medical and dental care

24 he has received, gratis, through the California Department of Corrections and
25

Rehabilitation. He had previously filed a similar suit in the matter styled Immanuel F.

26 Sanchez v. State of California, Case No. 2:18-cv-06107- R-AFM. That case was dismissed
27

for lack of subject matter jurisdiction. The dismissal was affirmed on appeal. [18-cv-

28

The instant case appears to be an attempted end-run around that

1

06107, ECF-19].

2

previously dismissed case. However, this case too will be dismissed for the same

3

reasons.

4
5

But to the point of the instant motion: Sanchez seeks to disqualify the magistrate

6 judge assigned to this case, Alexander F. MacKinnon. [ECF-12]. While not a model of
7

clarity nor specificity, it appears that Sanchez believes that Magistrate Judge MacKinnon

8

is biased against him as evidenced by rulings Judge MacKinnon has made. Sanchez does

9

not state the source of the bias. Indeed, the accompanying "affidavit of bias and

10
11

prejudice" states that Magistrate Judge MacKinnon "has a personal 'bias and prejudice'

12

against [him] and in favor of the government....

13

source of this alleged bias. In point of fact, this is merely an academic exercise because

14

this case will be dismissed and the issue of which magistrate judge is assigned to handle

15

(Mot. P.7.) We are left to guess the

discovery issues is, for all practical purposes, moot.

16
17
18

No fewer than five times in his affidavit Sanchez complains of bias on the part of
*

Magistrate Judge MacKinnon. He generally demonstrates the existence of said bias by

19

virtue of Judge MacKinnon having made rulings adverse to him. Included within those

20

rulings were denials of requests to proceed in forma pauperis. It is important to note

21

that on May 29, 2019 the Ninth Circuit held Sanchez's appeal was frivolous, denied his

22
23
24
25
26

IFP motion and dismissed his appeal of the 18-cv-06107-R action pursuant to 28 U.S.C
§1915(e)(2). (See 18-CV-06107, ECF-19)

II. Legal Standard
There are two federal statutes enacted to assure that litigants receive a fair trial

27
28

Page 2

1

before an impartial judge. Sanchez brings his claim under one of them: 28 U.S.C.§ 144

2 (Mot. 10) which provides: "Whenever a party to any proceeding in a district court
3

makes and files a timely and sufficient affidavit that the judge before whom the matter
*

4
5
6

is pending has a personal bias or prejudice either against him or in favor of any adverse
party, such judge shall proceed no further therein, but another judge shall be assigned

7 to hear such proceeding."
8
9

"The affidavit shall state the facts and the reasons for the belief that bias or
prejudice exists, and shall be filed not less than ten days before the beginning of the

10
11

term at which the proceeding is to be heard, or good cause shall be shown for failure

12 to file it within such time. A party may file only one such affidavit in any case. It shall be
13

accompanied by a certificate of counsel of record stating that it is made in good faith.”

14

Emphasis added. The Motion is timely filed and contains an affidavit attesting to the

15

good faith motivation for bringing the motion. Whhile the motion may pass procedural

16
17

muster, it is highly questionable whether the motion is made in good faith. In addition,

18 the motion is woefully lacking in the area of "facts".
19 A.

Judicial Rulings Are Almost Never a Basis for Finding Bias.

20

The Motion to Disqualify states: [tjhis motion will be made on the following

21
22
23
24

grounds: (1) that the judicial rulings of the magistrate judge constitute "pervasive bias
and prejudice."
1. On the Merits, There is No Basis For Recusal.

25
26
27
28

Since at least 1966 it has been the law that any claim that a judge is biased or
prejudiced against a party, must come from some extrajudicial source and result in an
Page 3

1
2

opinion on the merits on some basis other than what the judge learned from his
participation in the case.

United States v. Grinnell, 384 U.S. 563, 583; 86 S.St.1698

3
4
5

(1966)
As noted above, the instant request appears to have been prompted by an

6
7

unfavorable ruling by the magistrate judge. Mere dissatisfaction with a ruling of the

8 judge is not a valid basis for recusal. Adverse decisions do not establish bias or even
9

hint at bias.

Khor Chin Lim v. Courtcall Inc., 683 F.3d 378, 380 (7th Cir. 2012) (per

10
11
12

Easterbrook, J.).
Section 144 expressly requires a showing a bias or prejudice by the trial judge

13
14
15
16

against either the attorney or his client. Petitioner has not even attempted to articulate
the basis for his belief that Judge MacKinnon harbors a bias against him. Instead, his
complaint is anchored solely on his disagreement with the judge's rulings. This is

17
18
19

insufficient.
The law is clear, a request for disqualification of a judge must rest upon the judge

20
21
22
23

having acquired extrajudicial information which has caused the judge to disfavor the
movant. While courts, including this court, are generally forgiving in terms of requiring
strict compliance with Section 144, the fact remains that Sanchez is still required to state

24
25
26

facts supporting his belief that bias exists. Those assertions must be definite as to the

time, place, persons, and circumstances. [Mims v. Shapp, 541 F.2d 415, 417 (3d Cir.

27
28

Page 4

1
2

1976) bias defined] Mere conclusory allegations will not suffice. The facts stated "must
give fair support to the charge of a bent of mind that may prevent or impede impartiality

3
4

of judgment." Thus, courts have been rigorous in requiring a showing of personal bias

5

as contrasted with general or judicial bias.

6
III. IMPROPER CONDUCT ON THE PART OF PETITIONER

7

However, the court is concerned with a much more serious problem than the lack

8
9

of facts to support the assertion of bias.

The Court is concerned with a situation that

10
11
12

directly implicates Federal Rules of Civil Procedure, Rule 11, which provides in pertinent
part:.

\

13
14
15
16

(a) Signature. Every pleading, written motion, and other paper must be signed
by... a party personally if the party is unrepresented. The paper must state the
signer's address, e-mail address, and telephone number. Unless a rule or statute

17
18
19

specifically states otherwise, a pleading need not be verified or accompanied by
an affidavit. The court must strike an unsigned paper unless the omission is

20
21
22
23

promptly corrected after being called to the attorney's or party's attention.
(b) Representations to the Court. By presenting to the court a pleading, written
motion, or other paper—whether by signing, filing, submitting, or later

24
25
26

advocating it—an attorney or unrepresented party certifies that to the best of
the person's knowledge, information, and belief, formed after an inquiry

27
28

Page 5

l
2

reasonable under the circumstances:
(1) it is not being presented for any improper purpose, such as to harass,

3
4

cause unnecessary delay, or needlessly increase the cost of litigation;

5

(2) the claims, defenses, and other legal contentions are warranted by

6
7
8
9

existing law or by a nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law;
(3) the factual contentions have evidentiary support or, if specifically so

10
11
12

identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and

13
14
15
16

(4) the denials of factual contentions are warranted on the evidence or, if
specifically so identified, are reasonably based on belief or a lack of
information.

17
18
19

(c) Sanctions.
(1) In General. If, after notice and a reasonable opportunity to respond, the

20
21
22
23

court determines that Rule 11(b) has been violated, the court may impose
an appropriate sanction on any attorney, lawfirm, or party that violated the
rule or is responsible for the violation. Absent exceptional circumstances,

24
25
26

a law firm must be held jointly responsible for a violation committed by its
partner, associate, or employee.

27
28

Page 6

1
2

(3) On the Court's Initiative. On its own, the court may order an attorney,

3
4

law firm, or party to show cause why conduct specifically described in the

5

order has not violated Rule 11(b).

6
7
8
9

IV. CONDUCT TO BE ADDRESSED IN THE ORDER TO SHOW CAUSE
As noted above, the motion for disqualification appears to rest soley on Plaintiff's
dissatisfaction with the Court's rulings against him. As noted earlier, this is rarely a basis

10
11 for disqualification. However, Plaintiff has cited in his papers a lengthy passage from a
12 Supreme Court decision, which according to Plantiff, holds just the opposite. That case
13
14

is Liteky v. United States. Below, we quote the language in Plaintiffs motion. The

15 content underlined are portions of the actual decision which plaintiff has intentionally
16

omitted. The omitted language demonstrate that the decision holds just the opposite

17
18 of what Plaintiff argues in his motion.
19

"In Liteky v. United States, 510 U.S. 540 (1994), the Supreme Court declared that

20
21

'judicial rulings alone almost never constitute a valid basis for a bias or partiality motion.

22 . . . In and of themselves (i.e. apart from surrounding comments or accompanying
23

opinion), they cannot possibly show reliance upon an extrajudicial source: and can only

24
25

in the rarest circumstances evidence the degree of favoritism or antagonism required (as

26 discussed below) when no extrajudicial source is involved. Almost invariably, they are
27
28

Page 7

1 proper grounds for appeal, not for recusal. Second, opinions formed the judge on the
2

basis of facts introduced or events occurring in the course of the current proceedings, or

3
4 of prior proceedings do not constitute a basis for a bias or partiality motion [when] unless
5 they display a deep-seated favoritism or antagonism as to make fair judgment
6
7

impossible. Thus, judicial [rulings that occurred in the prior proceedings] remarks

8 during the course of a trial that are critical or disapproving of. or even hostile to. counsel.
9

the parties, or that cases, ordinarily do not support a bias or partiality challenge [If]. .

10
11 ... may do so if they reveal an opinion that derives from an extrajudicial source; and
12 they will do so if they reveal such a high degree of favoritism or antagonism as to make
13
14
15
16

a fair judgment impossible. Id., at 555."
No credible argument can be made that the alteration of the original decision was
inadvertent or a mistake. This is nothing more than a deliberate and bad-faith attempt

17
18 to mislead the court.
19

ORDER TO SHOW CAUSE WHY SANCHEZ SHOULD NOT BE SANCTIONS

20
21

Sanchez cited the Supreme Court decision in Litekyv. United States as supporting

22 the proposition that adverse rulings alone support the claim of judicial bias. Indeed, his
23

rationale for having Judge MacKinnon reassigned is based solely on adverse rulings.

24
25 Sanchez deliberately excised words from passages lifted from the decision so that it
26 appeared to state the rule that one who receives an unfavorable ruling may argue that
27
28

Page 8

1 the court is obviously biased. That is in fact the exact opposite of the holding of Liteky.
2

The alteration of the original decision actually required some degree of attention to

3
4 detail to make the deletions and still allow the passage to make sense. This was no
5 accident. This was not done in good faith.
6
7

The Court does not pretend to understand the workings of the mind of Mr.

8 Sanchez as to his motivation for this conduct. It is unknown if his purpose was to "harass,
9

cause unnecessary delay, or needlessly increase the cost of litigation." What is apparent,

10
11 however, is that it was done for some "improper purpose." For there is nothing proper
12 about intentionally attempting to mislead the court by the citation to Supreme Court
13
14

authority which has been materially altered. In any event, Mr. Sanchez will be given an

15 opportunity to explain his motivation at the hearing on this Order to Show Cause set for
16

December 20, 2019 at 1:30 in Courtroom 5-D.

17
18

As for the motion to Disqualify or reassign the matter from Magistrate Judge

19 MacKinnon, the request is DENIED.
20
21
22 IT IS SO ORDERED
23
24
25
26

DATED: November 26, 2019

Otis D. Wright, !i

District Judge/

27
28

Page 9

APPENDIX F

1
2
3
4
5
6
7
8
9

GUmteti States Strict Court
jfor fElje Central IBtsttrict of California

10
11

IMMANUEL F. SANCHEZ

12

Plaintiff,

13

v.

14
15
16

17

CV 2:19-09084 ODW (AFMx)
ORDER DENYING PLAINTIFF'S
MOTION TO VACATE THE ORDER
DENYING IFP STATUS [DE-19]

THE STATE OF CALIFORNIA,
Defendant.

Background
On October 22, 1019 Plaintiff filed an 80 page Complaint - not counting

18
19

approximately 50 pages of exhibits of various miscellaneous paperwork. The Complaint

20 charges violation of civil rights under 42 U.S.C. §1983 and RICO under 18 U.S.C. §§1961
21

et seq. It would appear that Sanchez is displeased with the quality of medical and dental

22 care he has received from a number of private non-governmental entities.
23

During the Summer of 2018 he had filed a similar suit in the matter styled

24
25

Immanuel F. Sanchez v. State of California, Case No. 2:18-cv-06107- R-AFM. Along with

26 the complaint, Sanchez filed a Request to Proceed in Forma Pauperis. [DE-1, 3.] Two
27 weeks after the complaint was filed, the Court issued an Order Dismissing the Complaint
28

1

due to a lack of subject matter jurisdiction; there was neither diversity nor a federal

2

question. In the same order, the request to proceed without payment of filing fees was

3

denied. [DE-8] The Order was affirmed, in its entirety, on appeal.

Specifically, the

4
5

Circuit Court stated "[ujpon a review of the record and response to the court's February

6

15, 2019 order, we conclude this appeal is frivolous. We therefore deny appellant's

7

motions to proceed in forma pauperis (Docket Entry Nos. 2 and 4) and dismiss this

8

appeeal as frivolous, pursuant to 28 U.S.C §1915(e)(2)." [18-cv-06107, ECF-19].

9

The instant action is a re-do of case No. 06107. The same claims are raised. Like

10
11

the earlier case, Plaintiff has filed a "Notice of Motion and Motion to Commence Suit in

12 forma pauperis, with an Affidavit of Indigency. (DE-2j. This is nearly the same suit as
13

06107 but under a new case number. This case too, will be dismissed for the same

14

reasons. [See DE-17]

15

But to the point: Sanchez complains about the denial of his request to proceed

16
17

in this action in forma pauperis. In case number 6107 there were denials of requests

18

to proceed in forma pauperis. It is important to note that on May 29, 2019 the Ninth

19

Circuit held Sanchez's appeal was frivolous, denied his IFP motion and dismissed his

20

appeal of the 18-CV-06107-R action pursuantto 28 U.S.C §1915(e)(2). (See 18-cv-06107,

21

ECF-19). Case number 6107 is essentially the same case as the instant matter. For all

22
23

practical purposes, the Court of Appeals has affirmed the district court's conclusion that

24

there is no federal court subject matter jurisdiction, and pursuant to 28 U.S.C

25

§1915(e)(2) the matter was properly dismissed. That ruling is essentially law of the case.

26

To the extent Sanchez wishes to relitigate the 6107 case, especially the issue of

27
28

Page 2

1

obtaining a waiver of the filing fee requirement, those wishes will go unfulfilled.

2

case remains one which is outside the jurisdiction of federal courts. The fee waiver issue

3

The

is not considered in the abstract, but is anchored to a case. Here, there is no case.

' 4
5

Without a case, the question of filing fees and waivers is meaningless. That is where the

6

Plaintiff finds himself. If he is in fact on general relief, he would be entitled to a waiver

7

of fees and costs in connection with litigation in which he is a party. However, there is

8

no case. Therefore the issue of filing fees is moot. Plaintiffs request for an order

9

vacating the order of Judge Walter is DENIED1 The docket does not reflect an order from

10
11

Judge Walter on October 28, 2019. In any event, this case has been dismissed. (See

12

Order dated November 15, 2019 again denying the request to proceed in forma

13

pauperis, and dismissing the case due to lack of subject matter jurisdiction. [DE-17.]

14
15

Plaintiff Immanuel F. Sanchez is ordered to make no further filings in this
closed case.

16
17

IT IS SO ORDERED

18
19
20

DATED: December 4, 2019

21
Otis D.

22

District Judge

23
24
25
26
27
28

i

. Plaintiff identifies the order to be vacated as simply the order of Judge John F. Walter entered
October 28,2019, presumably denying Plaintiffs IFP request. In fact, the only order from Judge Walter
on that date was the referral to the Magistrate Judge Sagar for her recommendation. However, before
Judge Sagar had time to offer her recommendation, the case was transferred to this Court
Page 3

APPENDIX G

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
f

Case No.

CV 19-09084-ODW(AFMx)

Title

Immanuel F. Sanchez v. State of California et al

Present: The Honorable

Date

December 20, 2019

Otis D. Wright II, United States District Judge

Sheila English
Deputy Clerk

N/A
Tape No.

C/S: 12-20-19
Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Immanuel F. Sanchez- Pro Se

N/A

Proceedings :

ORDER TO SHOW CAUSE

Case called, appearance by single appearing party, in pro se. Court first takes up
the request for judicial notice and rules. The Court then attempted to explain to Sanchez
why his heavily ellipsed quote of a Supreme Court decision was misleading and wholly
inaccurate in several places. Sanchez refused to recognize that filing misleading paper
runs afoul of Rule 11. No good cause was shown as to why his conduct should not be
sanctioned. He became verbally abusive and the hearing was terminated.
Sanchez sanctioned in the amount of $1,000, payable within 30 days.

IT IS SO ORDERED.

13
Initials of
Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

SE

Page 1 of 1

APPENDIX H

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
IMMANUEL F. SANCHEZ,

CASE NUMBER:

*

2:19-cv-09084-ODW-AFM
PLAINTIFF(S),
V.

STATE OF CALIFORNIA, ET AL.
DEFENDANT(S).

ORDER ON MOTION FOR LEAVE TO APPEAL IN
FORMA PAUPERIS:
□ 28 U.S.C. 753(f)
1^28 U.S.C. 1915

The Court,Laving reviewed the Motion for Leave to Appeal In Forma Pauperis and Affidavit thereto, hereby ORDERS: (The
check mark in the appropriate box indicates the Order made.)
B1’ The court has considered the motion and the motion is DENIED. The Court certifies that the proposed appeal is not
taken in good faith under 28 U.S.C. 1915(a) and is frivolous, without merit and does not present a substantial question
within the meaning of 28 U.S.C. 753(f).
The Clerk is directed to serve copies of this Order, by United States maiis^upon the parties appearing in this cause.

January 2, 2020
Date

United St&tes Distmct Judge

□ The Court has considered the motion and the motion is GRANTED. It appears to the Court that the proposed appeal
is taken in good faith within the meaning of 28 U.S.C. 1915(a). The Court certifies that the proposed appeal is not
frivolous, that it presents a substantial question. The within moving party is authorized to prosecute an appeal in forma
pauperis to the United States Court of Appeals for the Ninth Circuit without pre-payment of any fees or costs and without
giving security therefor.
□ A transcript is needed to decide the issue presented by the proposed appeal, all within the meaning of 28 U.S.C. 753
(f). The Court Reporter is directed to prepare and file with the Clerk of this Court an original and one copy of a
transcript of all proceedings had in this Court in this cause; the attorney for the appellant is advised that a copy of
the transcript will be made available. The expense of such transcript shall be paid by the United States pursuant to
28 U.S.C. 1915(c) and 753(f).
The Clerk is directed to serve copies of this Order upon the parties appearing in this cause.

Date

A-18 ORDER (02/08)

United States District Judge

ORDER ON MOTION FOR LEAVE TO APPEAL IN FORMA PAUPERIS

APPENDIX I

FILED

UNITED STATES COURT OF APPEALS

SEP 16 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

IMMANUEL F. SANCHEZ,
Plaintiff-Appellant,
v.

No.

19-56502

D.C.No.
2:19-cv-09084-OD W-AFM
Central District of California,
Los Angeles

STATE OF CALIFORNIA; et al.,
ORDER
Defendants-Appellees.
The motion for reconsideration and reconsideration en banc (Docket Entry
No. 9) is denied as untimely. See 9th Cir. R. 27-10.
This appeal remains closed.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Alex Christopher
Deputy Clerk
Ninth Circuit Rule 27-7

AC/MOATT

